<html>
<title> - MARKUP OF COMMITTEE RESOLUTION 115-20</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                 MARKUP OF COMMITTEE RESOLUTION 115-20

=======================================================================

                                 MARKUP

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
 
 


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
33-311                 WASHINGTON : 2018               




         
         
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia


                 MARKUP OF COMMITTEE RESOLUTION 115-20

                              ----------                              


                        WEDNESDAY, JULY 25, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:24 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Comstock, Walker, Smith, 
Loudermilk, Brady, and Lofgren.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Steven Wall, Deputy 
General Counsel; Dan Jarrell, Legislative Clerk; Max Engling, 
Staff Director of the Commission on Congressional Mailing 
Standards; Courtney Parella, Communications Director; Jamie 
Fleet, Minority Staff Director; Khalil Abboud, Minority Deputy 
Staff Director; and Eddie Flaherty, Minority Chief Clerk.
    The Chairman. I call to order the Committee on House 
Administration for today's Committee markup. A quorum is 
present, so we may proceed.
    The meeting record will remain open for 5 legislative days 
so Members may submit any materials they wish to be included 
therein.
    [The information follows:]
    The Chairman. We are here today to formally approve 
Committee Resolution 115-20 to update the townhall meeting 
regulations found in the Members' Congressional Handbook.
    The current handbook regulations allows Members of the 
House to co-host in-person townhall meetings with Members 
representing adjacent congressional districts. This handbook 
update will allow Members of the House to co-host telephone and 
internet or virtual townhall meetings with another Member even 
if the congressional districts are not adjacent.
    This update will offer additional flexibility to Members 
when communicating with their constituents via virtual townhall 
meetings.
    I would now like to recognize the Ranking Member, Mr. 
Brady, for the purpose of providing an opening statement if he 
desires.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, I support the Committee resolution before us 
today. This change to our Members' handbook will allow Members 
to communicate with their constituents about regional issues, 
allowing constituents more meaningful access to their 
government. I appreciate the bipartisan work in developing this 
proposal, and I urge my colleagues to support it.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you, Mr. Brady.
    I would ask if any other Member of the Committee wishes to 
be recognized for the purpose of providing an opening 
statement.
    Ms. Lofgren. Mr. Chairman.
    The Chairman. I recognize the gentlewoman from California.
    Ms. Lofgren. I don't have an opening statement, but I just 
wanted to clarify--I think it is permitted, but I wanted to get 
it on the record--that you could have more than one adjacent 
Member.
    For example, I had a townhall meeting once where there were 
three Members who were adjacent to each other on a topic, held 
at the county, you know, board chambers.
    So this is not restricted to two if there are--in an urban 
area, for example, there are oftentimes more than two who are 
adjacent.
    And, with that clarification, I would yield back.
    The Chairman. The Chair would agree with that 
interpretation. As long as they are adjacent, it can be more 
than two.
    Ms. Lofgren. Thank you.
    The Chairman. Anyone else?
    I now call up and lay before the Committee Resolution 115-
20 to prove the update to the Members' Congressional Handbook.
    Without objection, the first reading of the resolution is 
dispensed with, and the resolution is considered read and open 
for amendment at any point.
    [The resolution follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Is there any debate?
    Are there any Members who wish to offer an amendment to the 
resolution?
    If not, I move the Committee adopt the resolution.
    The question is on the motion.
    All those in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it, and the 
motion is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table.
    Without objection, the markup is adjourned.
    [Whereupon, at 11:27 a.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
